              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




   Audit Report


  Management Controls over Cash
  Advances for Proprietary Use of
  Office of Science User Facilities




OAS-M-07-07                       September 2007
                            Department sf Energy
                                 Washlnaton, U L L U S t l S

                                September 25, 2007


MEMORAlUDUM FOR                                                  OFFICE OF SCIENCE

FROM:

                           for Performance Audits
                         Office of Inspector General

SUBJECT:                INFORMATION: Audit Report 011 "Management Controls over
                        Cash Advances for Proprietary Use of Office of Science User
                        Facilities"



The Office of Science oversees the operation of 48 of the nation's most advanced research
and development user facilities located at national laboratories and universities. These
state of the art facilitics, which include particle and nuclear physics accelerators and
synchrotron light sources, are shared with the science con~munityworldwide and contain
somc technologies and illstrumentation that are unavailable elsewhere. The results of the
cxperimcnts pcrfoinmcd at these facilities can either be shared with the science community
or retained for proprictary purposes, typically by a commercial entity, with intentions of
using the information for profit or gain.

The Department of Energy's Accounti~zgHandbook requires that proprietary users
provide advance payments prior to beginning experiments using Department facilities.
These advances are applied to offset the Department's operating costs; thereby precluding
it from financing proprietary experiments. The objective of our audit was to determine
whether cash advances had been established by the Department for proprietary
experiments perfomled at user facilities.

RESULTS OF AUDIT

The Depai-tment had not always received advance payments for the proprietary use of its
facilities. Specifically, four of five user facilities did not obtain adequate advances for
46 percent (1 90 of the 409) of the proprietary experiments included in our review. For
cxample, it took one facility 404 days after the experiment started to receive payment
from a major oil company. Another facility was still waiting to collect payment from one
of its users for an cxperiiment begun 483 days piior to our review. In fact, three of these
facilitics indicated that thcy had never obtained advances from proprietary users.

Laboratories iilcluded in our rcview had not always established policies requiring
advanced payments. Specifically, two of the four laboratories had not established
policies requiring advance payments from proprietary users. Fut-ther, the Department's
site officcs had not verified whether the laboratories had policies requiring advance
payments or if they were collecting advances.
                                             2

As a result, the Department inappropriately provided funding for over $1.6 million in
costs for 190 proprietary experiments. To ensure that the agency does not finance
proprietary research at its user facilities, we recommended that the Department require its
site offices to implement controls to ensure that facilities are collecting advances from
proprietary users.

MANAGEMENT REACTION

The Office of Science concurred with the recommendations and provided an appropriate
corrective action plan to be implemented by the end of Fiscal Year 2008.

Attachment

cc: Deputy Secretary
    Under Secretary of Energy
    Under Secretary for Science
    Chief of Staff
    Team Leader, Audit LiaisonTeam, CF-1.2
REPORT ON MANAGEMENT CONTROLS OVER CASH ADVANCES
FOR PROPRIETARY USE OF OFFICE OF SCIENCE USER FACILITIES


TABLE OF
CONTENTS


  Advances from Users

  Details of Finding                                       1

  Recommendations and Comments                             3


  Appendices

   1. Objective, Scope, and Methodology                    4

   2. Prior Audit Report                                   5

   3. Management Comments                                  6
ADVANCES FROM USERS

Advances        The Department of Energy (Department) had not always received
                advance payments for the proprietary usage of its facilities. The
                Department's Accounting Handbook requires that advances be
                established from proprietary users, and states: "DOE funds will not
                be used, even on a temporary basis, to cover any of the non-DOE
                entity user's costs." As illustrated in the table below, however,
                four of five user facilities we reviewed had not always obtained
                adequate advance payments for proprietary experiments conducted
                during the period October 1, 2005 through December 31, 2006.


                      Table I: Experiments With and Without Adequate Advances
                                                         Number of
                                                        Experiments      Percentage
                                                                           With
                     Laboratory and Associated        In     Inadequate Inadequate
                            User Facility           Review Advances      Advances
                Brookhaven National Laboratory
                 Tandem van de Graaff                  45        45           100
                  National Synchrotron Light Source    45        45           100
                Stanford Linear Accelerator Center
                 Synchrotron Radiation Laboratory       79      79            100
                Berkeley National Laboratory
                 Advanced Light Source                 238      21              9
                Oak Ridge National Laboratory
                 Mouse Genetics Research Facility        2       0               0
                                              Totals   409     190              46


                Overall, we found that the Department had not obtained advances
                for 190 of the 409 proprietary experiments we reviewed.
                Representatives from Brookhaven National Laboratory
                (Brookhaven) and Stanford Linear Accelerator Center (Stanford)
                informed us that they never received advances from proprietary
                users. At Berkeley National Laboratory, we found problems with
                21 experiments, 12 were without any advance and 9 had
                insufficient advances to cover costs of the experiment. Oak Ridge
                National Laboratory collected advances for both experiments run
                during the period of review.

Management of   Laboratories had not always established policies consistent with
Advances        the Department's requirement for obtaining advance payment for
                proprietary research. Specifically, two of the four laboratories
                included in our review had not established policies requiring
                advance payments from proprietary users. When we initiated the
                audit, for example, Brookhaven did not have a policy requiring
                advance payments for proprietary use of its Tandem van de Graaff



Page 1                                                         Details of Finding
                    and the National Synchrotron Light Source. Similarly, Stanford
                    did not have an advance payment policy for proprietary use of its
                    Synchrotron Radiation Laboratory. Based on our audit work,
                    Brookhaven and Stanford representatives provided us with their
                    newly drafted policies during our site visits.

                    Furthermore, the Department had not verified whether the
                    laboratories had established policies requiring advance payments
                    and were collecting advances. In fact, the Department was
                    unaware that such policies did not exist at two laboratories, or that
                    advances were not always collected.

Financing of        By not collecting adequate cash advances, the Department
Proprietary Costs   inappropriately financed over $1.6 million for the cost of
                    experiments performed by proprietary users for extended periods
                    of time. The elapsed days, from the beginning of the experiment to
                    receipt of the payment from the user, represents the amount of time
                    that the Department financed the cost of proprietary experiments
                    conducted at its user facilities. The table below shows the average
                    delay in receiving payments from proprietary users. The average
                    elapsed days to receive payment was greater than six months for
                    the National Synchrotron Light Source, almost five months for the
                    Tandem van de Graaff, about two months for the Synchrotron
                    Radiation Laboratory, and less than one month for the Advanced
                    Light Source.

                             Table II: Cost of Experiments With Inadequate Advances
                      Laboratory and Associated        Number of     Cost of     Average Days
                             User Facility            Experiments   Advances      to Payment
                    Brookhaven National Lab
                     Tandem van de Graaff                 45          $984,407        141
                     National Synchrotron Light
                      Source                              45          $324,346        192
                    Stanford Linear Accelerator
                    Center
                     Synchrotron Radiation Lab            79          $232,158        56
                    Berkeley National Lab
                     Advanced Light Source                21           $86,451        24
                                             Totals      190        $1,627,362        103

                    Although averaging 103 elapsed days for all of the experiments,
                    payments for some experiments were outstanding for much longer.
                    For example, the Department financed:

                       •   A major oil company that took 404 days to pay $45,185 for
                           its experiment;



Page 2                                                                Details of Finding
                     •   Another experiment, costing $34,358, that was not paid for
                         469 days; and,

                     •   Two other experiments totaling $54,206, which had not
                         been paid as of the time of our reviews and were
                         outstanding for 169, and 483 days.

                  The absence of advances and delays in payment were identified at
                  four of the five user facilities included in our review. These same
                  conditions may be occurring at the other 43 Office of Science user
                  facilities.

RECOMMENDATIONS   We recommend that the Chief Operating Officer, Office of
                  Science, strengthen oversight of user facilities by directing the site
                  offices to:

                     1. Review facilities proprietary use policies for compliance
                        with the Department's advance payment policy; and,

                     2. Periodically review user facilities collections of advances.

MANAGEMENT        The Office of Science concurred with the recommendations and
REACTION          directed the site offices to implement the Department's policy
                  requiring the payment of cash advances and periodic monitoring of
                  compliance with the policy by the end of Fiscal Year 2008.

AUDITOR           Management's comments are responsive to the report's
COMMENTS          recommendations.




Page 3                                          Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine if cash advances had
              been established for experiments performed at user facilities

SCOPE         The audit was performed between February 2007 and June 2007 at
              the Office of Science's Headquarters in Germantown, MD;
              Berkeley National Laboratory in Berkeley, California; Stanford
              Linear Accelerator Center in Stanford, California; Brookhaven
              National Laboratory in Upton, New York; and Oak Ridge National
              Laboratory in Oak Ridge, Tennessee. The scope of the audit
              included experiments performed at user facilities during October 1,
              2005 through December 31, 2006.

METHODOLOGY   To accomplish the audit objective, we:
                  •   Reviewed applicable laws and regulations pertaining to
                      user facility operations;
                  •   Reviewed Departmental policies and procedures related to
                      user facility operations;
                  •   Judgmentally selected five user facility sites based on the
                      amount of proprietary work and other indicators of
                      adverse conditions;
                  •   Performed site visits to review and analyze the status of
                      user advances and verify the receipt of payment for
                      experiments performed;
                  •   Determined the status of Departmental oversight of the
                      user facility operations; and,
                  •   Held discussions with officials and personnel from the
                      Office of Science and the Berkeley, Stanford, Brookhaven
                      and Oak Ridge National Laboratories.
              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy audit objectives.
              Performance measures were not established for the advances
              obtained by user facilities; therefore, we could not assess how they
              might have been used to measure performance. Because our
              review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of
              the audit. We assessed the reliability of computer-processed data
              through validation to supporting documentation and found it to be
              accurate.
              Management waived the exit conference.


Page 4                                    Objective, Scope, and Methodology
Appendix 2


                                 PRIOR AUDIT REPORT


  •   Recovery of Costs for the Proprietary Use of the Advanced Photon Source (DOE/IG-
      0753, January 2007). This report identified ineffective administration of financial
      controls over proprietary research at the Advanced Photon Source. Specifically, Argonne
      National Laboratory charged an hourly rate that was not sufficient to cover operating
      costs, routinely reduced the number of hours charged to proprietary users, and did not
      always collect advances for proprietary experiments. The Department of Energy had not
      reviewed the charges of the Advanced Photon Source since it began operating in 1995,
      and the laboratory had not established controls to ensure accurate reporting of proprietary
      usage and to obtain advances from proprietary users. As a result, the Department was, in
      effect, subsidizing scientists conducting proprietary research at Argonne by at least $3
      million from Fiscal Year 2004 through the first quarter of Fiscal Year 2006.




Page 5                                                                      Prior Audit Report
Appendix 3




Page 6       Management Comments
                                                                    IG Report No. OAS-M-07-07

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
